August 13, 2020

VIA ELECTRONIC FILING

Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Massachusetts Lobstermen’s Association v. Ross, Case No. 20-97

Dear Clerk of the Court:
I represent Petitioners Massachusetts Lobstermen’s Association, Atlantic Offshore
Lobstermen’s Association, Long Island Commercial Fishing Association, Garden State
Seafood Association, and Rhode Island Fishermen’s Alliance in the above-referenced
matter.
In accordance with Rule 37.2(a) of the Rules of the Supreme Court of the United States,
Petitioners hereby grant blanket consent to the filing of amicus curiae briefs in this
matter.
Thank you.
Sincerely,

Jonathan Wood
Counsel of Record for Petitioners
cc: Noel J. Francisco, Counsel for Respondents, SupremeCtBriefs@usdoj.gov

Kate Desormeau, Counsel for Defendant-Intervenor Natural Resources Council
kdesormeau@nrdc.org
Ian Fein, Counsel for Defendant-Intervenor Natural Resources Council
ifein@nrdc.org

Peter Shelley, Counsel for Defendant-Intervenor Conservation Law Foundation
pshelley@clf.org
Roger M. Fleming, Counsel for Defendant-Intervenors Center for Biological
Diversity and R. Zack Klyver. rflemingme7@gmail.com

